rr>
NoSuprem

JUN I $ 2021

IN THE

PfF)Cg r>r

SUPREME COURT OF THE UNITED STATES

GUY DON MINZE. PRO-SE
(Your Name)

— PETITIONER

vs.

CHIEF JUSTICE TOM GRAY ET.AL

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

TENTH COURT OF APPEALS. WACO. TEXAS_________________________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

GUY DON MINZE
(Your Name)
1391 FM. 3328
(Address)
TENNESSEE COLONY. TEXAS 75880
(City, State, Zip Code)
NONE
(Phone Number)

^£LERK

QUEST10N(S)PRESENTED
QUESTION ONE:
Did the Court of Appeals err in failing
to base its Opinion on the evidentiary
and adjudicated facts in the record i.e.
the Trial Court's "judgment of conviction
for Counts One and Two?
QUESTION TWO:
Did the Court of Appeals err in ruling,the
Trial Court had submatter-jurisdiction
over the offense pursuant to Penal Code
Provision § 21.11(a)(1)"Indecency With A
Child By Sexual Contact" i.e the offense
the Petitioner was charged and convicted
of in Counts One and Two?
QUESTION THREE:
Did the Court of Appeals err in ruling
the Motion to Quash and the argument in
Issue Four of Petitioner's Direct Appeal
Brief are not the same Issue of "Notice"?
QUESTION FOUR:
Did the Court of Appeals err, by relying
on Tex.R.App.P.38.1(i),ruling Issues Two
and Three are inadequately briefed and ;■ : c
present nothing to review because Pet^ :itioner failed to point to any element
the State was required to prove as be­
ing insufficiently supported by the
evidence?
QUESTION FIVE:
Did the Court of Appeals err in ruling,
the Petitioner failed to provide Authority
to support his argument and the issue is
improperly briefed and presents nothing
for review pursuant to Tex.R.App.P.38.l(i)?
QUESTION SIX:
Did the Court of Appeals err in ruling,the
Petitioner failed to presrve Petitioner's
claim of prosecutorial vindictiveness by
failing to comply with Tex.R.App.P.33.1(a)?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
State of Texas v. GUY DON MINZE,CAUSE No.DC-201700234, 413th
Judicial Disrict Court, Johnson County, Texas
GUY DON MINZE v. STATE OF TEXAS, COA No.10-18-00333-CR, TENTH
DISTRICT COURT OF APPEALS, WACO, TEXAS
GUY DON MINZE v. STATE OF TEXAS, COA No.10-18-00333-CR,PD-0983-20
AUSTIN, TEXAS

TABLE OF CONTENTS
OPINION BELOW...............................................................
JURISDICTION....................................................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE..................................................
REASONS FOR GRAMTING THE WRIT...................................
CONCLUSION............................... ............. ...........................

1
2
3-5
6
7r26
26

INDEX TO APPENDICES
APPENDIX A,TENTH DISTRICT COURT OF APPEALS MEMORANDUM OPINION AND
JUDGMENT, PETITIONER'S APPELLATE BRIEF
APPENDIX B,TRIAL COURT'S JUDGMENTS OF CONVICTION FOR ALL FOUR COUNTS
MANDATE ISSUE FOR DIRECT APPEAL
APPENDIX C,COURT OF CRIMINAL APPEALS OF TEXAS REFUSAL OF PETITIONER'S
PETITION FOR DISCRETIONARY REVIEW, PETITIONER'S PETITION
FOR DISCRETIONARYvREVIEW

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X| For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[xl is unpublished.
The opinion of the TENTH disktc.t coukt of appeals
appears at Appendix _A---- to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[Xl is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

Ck3 For cases from state courts:
The date on which the highest state court decided my case was MAR. 18 > 2021.
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
NONE
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including NONE
(date) in
(date) on NONE
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
UNITED STATES CONSTITUTION, FOURTEENTH AMENDMENT: The constitutional
amendment, ratified in 1868, whose primary provisions effectively
apply the Bill of Rights to the states by prohibiting states from
denying due process and equal protection and from abridging the pri­
vileges and immunities of U.S citizans. The amendment also gave Con­
gress the power to enforce these provisions, leading to legislation
such as the civil rights act. See APPENDIX C, PETITION FOR DISCRETION­
ARY REVIEW, PAGES,1,3,4,6,7,8,9,10,11,12,14,15.
UNITED STATES CONSTITUTION, SIXTH AMENDMENT: The constitutional
amendment,ratified with the Bill of Rights in 1791, guaranteeing in
criminal cases the right to be informed of the nature of the accusa­
tion , the right to confront witnesses. See APPENDIX C, PETITION FOR
DISCRETIONARY REVIEW,PAGES,13,14.
TEXAS CONSTITUTION ARTICLE V. § 12(b): A charging instrument must
allege that(l)a person(2)committed an offense(defining "indicment"
and "information" as written instrument presented to the court
II II
"charging a person with the commission of an offense . See APPENDIX
C, PETITION FOR DISCRETIONARY REVIEW,PAGES,5,6,7.
TEXAS CODE CRIMINAL PROCEDURE ARTICLE 21.03: Sufficiency of an in­
dictment , "Every thing should be stated in an indictment which is
to be proved." See APPENDIX C, PETITION FOR DISCRETIONARY REVIEW,
PAGE,8 .
TEXAS CODE CRIMINAL PROCEDURE ARTICLE 21.11: An indictment shall
be deemed sufficient which charges the commission of the offense
in ordinary and concise'language in such a manner as to enable
a person of common understaning to know what is meant,and with
that degree of certainty that will give the defendant notice of
the particular offense with which he is charged, and enable ther
court, on conviction, to pronounce the proper judgment;...See
APPENDIX C, PETITION FOR DISCRETIONARY REVIEW, PAGE,8

3

TEXAS CODE CRIMINAL PROCEDURE ARTICLE 1:2 8.01 § (2)When a r.ri mi n*l________

case is set for such pretrial hearing, any such preliminary matter
not raised or filed seven days before the hearing will not thereafter
be allowed to be raised or filed, except by permission of the
court for good cause shown. See APPENDIX C, PETITION FOR DISCRETIONARY
REVIEW, PAGE,15.
TEXAS CODE CRIMINAL PROCEDURE ARTICLE 36.11. DISCHARGE BEFORE VERDICT:
If. it appears during trial that the trial court fiasco; jurisdiction
of the offense or that the .facts charged in the indictment do
not constitute an offense the jury must be discharged. See APPENDIX
C, PETITION FOR DISCRETIONARY REVIEW, PAGE, 7.
TEXAS CODE CRIMINAL PROCEDURE ARTICLE 42.01 §(l) JUDGMENT. See
APPENDIX C, PETITION FOR DISCRETIONARY REVIEW, PAGES,1,10
TEXAS PENAL CODE PROVISION § 15.031(b) CRIMINAL SOLICITATION OF
A MINOR. See APPENDIX C, PETITION FOR DISCRETIONARY REVIEW,PAGES,
1,11.
TEXAS PENAL CODE PROVISION § 21.11(a)(1) INDECENCY WITH A CHILD
BY SEXUAL CONTACT. See APPENDIX C, PETITION FOR DISCRETIONARY
REVIEW,PAGES,1,4,5,8,10,11
TEXAS RULES APPELLATE PROCEDURE 33.1(a) PRESERVATION OF APPELLATE
COMPLAINT. See APPENDIX C, PETITION FOR DISCRETIONARY REVIEW,
PAGES, 14,16.
TEXAS RULES APPELLATE PROCEDURE 38.1(i) REQUSITES OF BRIEF:(i)
ARGUMENT: The brief must contain a clear and concise argument
for the contentions made, with appropriate citations to authorities
and to the record. See APPENDIX C, PETITION FOR DISCRETIONARY
REVIEW, PAGES,10,12,13.
TEXAS RULES APPELLATE PROCEDURE 44.2(b) REVERSIBLE ERROR IN CRIMINAL
CASES. See APPENDIX C, PETITION FOR DISCRETIONARY REVIEW, PAGES,8,9.

k

TEXAS RULES APPELLATE PROCEDURE 6 6.3 ( a H c )i_dim__DXS.CR.F.T-XQNAR-YREVIEW IN GENERAL. See APPENDIX C, PETITION FOR DISCRETIONARY
REVIEW, PAGES,1,4,5,7,8,10,13,14.

5

STATEMENT OF THE CASE
Petitioner was indicted on October 29,2015 in Cause No.F49964, for
Possession of Controlled Substance under 1 gram(Supp..C.R. Ip. 17) . On
December 17, 2015, Petitioner was indicted in Cause No.F50086 for Agg­
ravated Promotion of Prostitution(Supp.C.R.Ip.48). On March 31, 2016,
Petitioner was re-indicted in Cause No.F50412 for Aggravated Promotion
of Prostitution and re-indicted in Cause No.F50413 for Possession of
Controlled Substance under 1 gram(Supp. C.R. 1,p. 94). On May 5,2016, Pet­
itioner was indicted for Forgery in Cause No.F50501(Supp.C.R.1,pl49).
On March 30, 2017, Petitioner was re-indicted in Cause No.DC-201700234
on Two Counts of Indecency With A Chils By Sexual Contact-Criminal Sol­
icitation of a Minor, One Count of Bail Jumping, One Count of Possession
of Controlled Substance under 1 gram(C.R.Vol.1,pp.14-16). The State pro­
ceeded to trial on Cause No.DC-201700234, Petitioner plead not guilty to
all Counts in the indictment(R.R.Vol.12,pp.6-8.
On October 16, 2018 trial began, Petitioner was found guilty by a ;
jury on all four counts(R.R.Vol.12,ppl41-142). The jury then assessed
punishment at Life in Texas Department of Criminal Justice on Counts One
and Two, Twenty-Five years in Texas department of Criminal Justice on
Count Three and Ten years in Texas Department of Criminal Justice on
Count Four.(R.R.Vol.13,pp.85-870
Petitioner,: gave notice of appeal and Appeal was timely filed . On
August 31,2020, Tenth District court of appeals denied Petitioner's
Dircet Appeals. Petitioner proceeding Pro-Se filed a motion for extention of time, the Court of Criminal Appeals on October 16, 2020 granted
the Petitioners motion for extention of time to file Prtition for Dis­
cretionary Review. The Petioner filed the Petition for Discretionary Re­
the Court of Criminal Appeals of Texas refused the Pet­
view timely
ition for Discretionary Review on January 13, 2020.

6

BEASONS-FOR GRANTING THE PETITION
PURSUANT OF SUPREME COURT RULE 10(a)
Did the Court of Appeals err in failing
to base its Opinion on the evidentiary
and adjudicated facts in the record i.e.
the Trial Court's judgment of conviction
for Counts One and Two
The Court of Appeals decision is one of judicial bias and con­
flicts with other Court of Appeals, Court of Criminal Appeals and
United States Court of Appeals, Due Process Clause of the Four­
teenth Amendment of the United States Constitution, pursuant of
Supreme Court Rule 10(a), Tex.R.App.P.66.3(a)(c)(f), Tex. Code
Crim.Pore.Art.42.01§1, Tex.R.App.P.44.2(b).
A. TRIAL COURT'S JUDGMENT OF CONVICTION FOR COUNTS ONE AND TWO
The Tex.Code Crim.Proc.Art.42.01§1 "Judgment" states in section
(1)"a judgment is the written declaration of the court signed by the
trial court judge and entered of record showing conviction or acquittal
of the defendant, the sentence served shall be based on the information
contained in the judgment."
Accordingly, Petitioner directs this Honorable Court to the judgment
for both Counts One and Two(C.R. Vol.1,pp.219-225). The judgments for
both Counts One and Two,[evidence], that the Petitioner was convicted
under Texas Penal Code Provision §21.11(a)(1)"Indecency With A Child
By Sexual Contact". Although the judgments show the title of the off­
ense to be "Indecency W/Child ~byISexual ^Contact-Criminal Solicitation
of a Minor", the actual title under Texas Penal Code Provision §21.11
(a)(1) is "Indecency With A Child By Sexual Contact".
As such this’Honorable Court:should"agree'that the Petitioner stands
charged and convicted under Texas Penal Code Provision §21.11(a)(1)
"Indecency With A Child By Sexual Contact".
The court of appeals in its Judgment issued on August 31,2020,
affirmed the Trial Court's judgments for all Four Counts of the indicment. Yet [contrary]to the evidentiary and adjudicative facts contained
in the judgments of conviction for both Counts One and Two(C.R. V0L.1,
pp.219-225), the court of appeals in its "Memorandum Opinion"

[ pr e j udTcl-a-I-Iy-]—ho-M-s—t-ha-t-the-Pe-t-i-t-i-oner-wa-s-and-i-s-c-harged-and
Penal Code Provision
convicted of "Criminal Solicitation of A Minor
§15.031(b) see ;(court of appeals Memorandum Opinion,p.l first senence,p.4,last paragraph,p.6 under title "sufficiency of evidence"
p.7 and p.8 at footnote).
The court of appeals conduct is in conflict with both, Court of
Criminal Appeals and this Honorable Court's rulings in the past as to
the evidentiary weight of the adjudicated facts contained in the trial
State,
court s formal judgment. The State Court held, in Breazeale v.
638 S.W.2d 446,450-51(Tex.Crim.App.T984)"[T]he formal judgment of the
trial court carries with it the presumption of regularity and truthfulness [in the conduct of the jury trial] and such is never to be lightly
set aside". See also;Chafin v. State,95 S.W.3d 549;2002 Tex.App.LEXIS
8769 No.03-01-00493-CR Dec.l2,2002,filed)"May a trial court accept a
jury s verdict at guilt-innocence stage of a trial and then sua sponte
reform the verdict at the penalty stage and instruct the jury to punish
a different offense?" The answer is ho. It has been repeatedly held
that the judgment must follow the verdict. Nothing may be added thereto
nor taken therefrom." Ex parte Gibson,137 Tex.Crim.72,128 S.W.2d 396,397
(Tex.Crim.App.1939).See also;Collier v. State,999 S.W.2d 779,782(Tex.
Crim.App.1999):A court of appeals may reform a judgment of conviction
to reflect a lesser-included offense only if (1) The court finds the
evidence insufficient to support the conviction of the charged offense
but sufficient to support a conviction of the lesser-included offense
and (2) either the jury was instructed on the lesser-included offense
(at the request of either party or by the trial court sua sponte)or
one o£ the parties asked for but was denied such an instruction,Id.
In the instant case, there was no such request by either party
nor an instruction by the trial court.
This Honorable Court should agree, the court of appeals does not
possess the authority to [nostra sponte] base its rulings on an offense that the Petitioner has niether been charged with nor convicted
of e.g that is not suppoted by the recore, i.e the trial court's
judgment of conviction.

8

B. THE JUDGMENT SAYS WHAT IT IS MEANT TO SAY
The United States Supreme Court ruled in, Hill v. Wampler,298 U.S.
460,80 L.Ed. 1283,56 S.Ct. 760(1939): At 464...The only sentence known
to the law is the sentence or judgment entered upon the record of the
court. Miller v. Aderhold,[288 U.S.206]:[omittedf. If the entry is
inaccurate, there is a remedy to correct it to theend that it may speak
the truth. Peoples ex parte rel. Trainor v. Baker,89 N.Y.460,466. But
the judgment imports verity when collaterally assailed.Ibid. Until it
is corrected in a direct proceeding, it says what it is meant to say,
and this by an irrebuttable presumption. In any collateral inquiry, a
court will close its ears to a suggestion that the sentence entered in
the minutes is something other then the authentic expression of the
Judge.Id.
In the case at bar, there has been no motion claiming a need to cor­
rect the adjudicated facts contained in any part of the record[specificallyjthe trial court's judgments of conviction for Counts One and Two,
accordingly for the court of appeals to [nostra sponte] base its rulings
on an offense that the Petitioner has niether been charged with nor
convicted of,[begs] the question of the possibility of constitutional
violation of due process?
C. JUDICIAL BIAS, CONFLICTS WITH THE COURT AND THE DUE PROCESS CLAUSE
This Honorable Court should agree, the "reviewing court", is required
to conduct its reviews under "judicial impartiality" to ensure
Fundamental Fairness. The 9th Circuit of Appeals ruled in, Hurlesv.
Ryan,706 F3d 1021(C.A.9thCir.2013)at 1036:"The Due Process Clause of the
Fourteenth Amendment establishes a constitutional floor, not a uniform
standard," for judicial bias claim. Bracy v. Gramley,520 U.S. 899,904,
117 S.Ct. 1793,138 L.Ed2d 97(1977)While most claims of judicial bias
are resolved "by common law, sta"tute.'.or;:by::prof essional standard of the
bech and bar," the Floor established by the Due Process Clause clearly
requires a 'fair trial by a fair tribunal' before a judge with no actual
bias against the defendant or interest in the outcome of a particualer
case.Id" at 904-05 117 S.Ct. 1793[.] The constitution requires recusal
wherte "the probability of actual bias on the part of the Judgge or

9

h^TrL-S'i~on~-rrr3-krer—i~s—t_o o-hf-gh—t~o-~b'etX)l~era~bd~e~'J~Wa~tixTojW7'4^2~l U~S“ ai;' '4-7t9-5“
S.Ct. 1456. Our inquiry is objective. Caperton v. A.T. Massey Goal
00^,556 U.S. 868,881,129 S.Ct. 2252,173 L.Ed 1208(2009).Continuing
at 1037: Hurles need not prove actual bias to established a due process
violation, just an intolerable risk of bias. Caperton, 55.6 U.S. at 88384,129 S.Ct. 2252. Due Process thus mandates a "stingent rule" that may
sometimes require recusal of Judges "who have no actual bias and who
would do their very best to weigh the scales of Justice equally" if
there exist a "probability of unfairness." Merchison,349 U.S. at 136,75
S.Ct. 623,...Non-pecuniary conflicts "that tempt adjudcator to disregard
neutrality" also ofends due process. Caperton,556 U.S. at 878,129 S.Ct.
2252. a Judge must withdraw where she acts as part of the accusatory
process,Merchison,349 U.S. at 137,75 S.Ct. 623 at 465,91 S.Ct. 499[.]...
At 1038:Johnson v. Mississippi,403 U.S. 212,215-16,91 S.Ct. 1778,29 L.
Ed.2d 423(1971). Accordingly the judiciary must be both impartial and
disinterested as the United States Supreme Court rule in,Marshall v.
Jerrico,Inc.,446 U.S. 238,64.L.Ed.2d 182,100 S.Ct. 1610(1980):The
Court stated at 1613: The Due Process Clause entitles a person to an
impartial and disinterested tribunal in both civil and criminal cases.
This requirement of neutrality in adjudication proceedings safegards the
two central concerns of procedural due process,the prevention of unjust­
ified or mistaken deprivation and the participation and dialogue by aff­
ected individuals in the decision making process.See Carey v, Piphus,
435 U.S. 247,259-262,98 S.Ct. 1042(1978). Theneutrality requirement
helps to guarantee that life,liberty, or property will not be taken on
the basis of an erroneous or distorted concept of the law. See,
Mathew v. Eldridge,424 U.S. 319,344,96 S.Ct., 893,907,47 L.Ed.2d 18(1976).
At the same time, it preserves both the appearance and reality of fair­
ness, "generating the feeling, so important to a popular government
that justice has been done," Joint Anti-fascist Committee v. McGrath,
341 U.S. 123,172,71 S.Ct. 624,649,96 L.Ed. 817(1951)...,by ensuring that
no person will be deprived of his interest in the absence of a proceed­
ing in which he may present his case with the assurance that the arbiter
is not predisposed to find against him.

Accordingly this Honorable Court, should agree, the court of appeals
rulings and judgment, due to the existance of actual judicial bias,
must be vacated and as such the Petitioner, ask this Honorable Court to
grant this Writ of Certiorari, pursuant of Supreme Court Rule 10(b) and
the United States Constitution, Fourteenth Amendment: Due Process
Clause, in the interest of Justice, as torprevent a miscarriage of
Justice in this instant case and to ensure a continued upholding of our
great protections afforded to the citizans of the United States of
America of our United States Constitution.
PURSUANT OF SUPREME COURT RULE 10(b)
Did the court of appeals err in ruling,the
trial court had personal jurisdiction over
Petitioner and subject-matter pursuant to
Penal Code Procision Section 21.11(a)(1)
"Indecency With A Child By Sexual Contact"
i.e. the offense the Petitioner was charged
and convicted of in Counts One and Two
The court of appeals decision conflicts with other court of appeals,
Court of Criminal Appeals of Texas, United States Court of Appeals,
United States Constitution, Fourteenth Amendment: Due Process Clause,
Texas Constitution Article V. §12(b), pursuant, of Supreme Court Rule 10
(b), Tex.R.App.P. 66.3(a)(c)(d)(f), Tex.Code Crim.Proc.Art.36.11, Tex.
Penal Code Prov.§21.11(a)(1).
A. IMPLICIT WITH CASE LAW IS THAT "THE OFFENSE" CHARGED MUST BE
ONE FOR WHICH THE TRIAL COURT HAS SUBJECT-MATTER JURISDICTION
The Petitioner, shows this Homorable Court the court of appeals was
erroneous in misplacing prior rulings of the Court of Criminal Appeals
of Texas j in trying to justify its ruling on Issue One of the Peti^..
tioner's Direct Appeal Brief.
In the case at bar, the court of appeals has taken the Authorities
that the High Court of Texas Appeals and this Honorable Court has set
as guilding principles to protect the accused from unfairness, i.e con­
stitutional violations e.g. due process violations and has[brashlyJused
them to try to justify the trial court's abuse of discretion in violat­
ing the .Petitioner's constitutional rights. This Honorable Court should
agree this cannot be considered as[constitutionaally]practichble and r
must not be accepted as such.
11

The Petitioner, points this Honorable Court to the court of appeals
"Memorandum Opinion"(p.3) the court cited,Teal v. State,230 S.W.3d 172,
178-180(Tex.Crim.App.2007)"a defendant challenge for the first time on
appeal an instrument that fails to charge the commission of an offense
or does not charge a person with the crime."
Accordingly, the Petitioner points;'this Honorable Court to the in-'.:;:,
dictment in this instant case. The indictment reads as follows for
Counts One and Two: title of the offense, is "Indecency With A Child By
Sexual Contact-Criminal Solicitation of A Minor". ; :s
First, the Petitioner shows this Honorable Court, the offense title
is actually [Two] different offenses combined as [One]. The First part
is an. offense found under Texas Penal Code Provision §21.11(a)(1),
"Indecency With A Child By Sexual Contact". The second part is an offe.
ense title is found under Texas Penal Code Provision §15.031(b),
"Criminal Solicitation of A Minor".
The allegation readsciH Count One as follows:
"hereinafter styled Defendant, on or about September 2,2015 and
before the presentment of this indictment in the County and State
aforsaid, did and there: With intent that the offense of inde- .
cency with a child by sexual contact be committed, request,command). or:attemptitoeinducera minor. 6r.:atriindivi'dual:whomethe def:. .vendant believed'-tbhbe younger than 17years of age namely Cora
Gray, to engage in spacific conduct, to wit "the touching of the
anus,breats, or any other part of the genitals of a child younger
than 17tears of age with intent to arouse or gratify the sexual
desire of any person, that under the circumstances surounding the
conduct of said defendant as the defendant believed them to be
would constitute the offense of indecency with a child by sexual
contact. tin Count Two reads the same with the exception that the
intended victims name is Kimberly Bustos. (G.R.Vol.l/pp. 14“16-)': -As such, the Petitioner stands convicted, under Texas Penal Code :
Provision §21.11(a)(1), which is defined as follows:
Indecency With A Child By Sexual Contact: (a)"A person commits an
offense if, with § child younger then 17, ^§9C§ q£ fgf .whether the
child is the ’same' sex "arid7regardless of whether" the^person knows
the.age of the child at the time of the offense, the person
(l)Engages in sexcual contact with the child or causes the child
to engage in sexual contact."

12

This is not a prepartory act,as set out in the indictment when the
indicment used the treminology of "with the intent" to commit the crime
but is a crime of indulging in the spacific act of "sexual contact".
For the indictment to vest the trial court with jurisdiction over
the Petitioner and subject-matter of the offense in Counts One and Two,
the indictment must allege the Petitioner "[knowingly and intentional,
ally]" "[engaged]" in "[sexual contact]" "[with a child younger than 7
17]", accordingly the indictment does not allege any of these required
[elments], theree is not even a child in this case at bar.
The indictment in referance to Counts One and Two, does not allege
that the Petitioner committed a arcrime pursuant to Texas Penal Code
Provision §21.11 ( a) (1) , [ the] thdiu.f f ehse the Petitioner stands convicted
of in Counts One and Two, therefore the trial court did not have juris­
diction over the Petitioner or subject-matter of the offenses in Counts
One and Two.
Although the Petitioner filed a "Motion to Quash"[timely], and ade­
quately plead the defects in the indictment in regards to Counts One .a.
and Two(C.R. Vol.1,pp.116-128), the trial court denied the motion with­
out giving any reason and without letting the Petitioner.make his argument as to the defects in the indictment(R.R.Vol.11,p.4).
Accordingly the Petitioner challenged the trial court's jurisdiction
over Petitioner and the subject-matter for Counts One and Two.
According, to the record i.e., the trial court's "judgment of convic­
tion "for CountssOne and Two, the Petitioner was charged and convicted
under Penal Code Provision §21.11(a) (1). Asasuch the Petitioner shows
this Honorable Court at page 4 of his Direct Appeal Brief, beginning at
the last paragraph: the Appellant argues, "The trial court had no pera.
sonal jurisdiction over Appellant or subject-matter with regards to
Counts One and Two of the indicment. When the trial court lacks juris-,
diction for any reason, the judgment is rendered void.State v. Olsen,
360 S.W.2d 398(Tex.1962),A void judgment is a nullity and can be a r.
attacked at any time.;Nix v. State,65 S.W.3d 664(Tex.Crim.App.2001)V.
Following, theacour.t tof fappealssinaits Opinion at(p . 3 , starting at line
6,citing Teal):"Tealj230 S.W.3d at 179,"A charging instrument must
allege that(l)a person(2)committed an offense", the court of appeals
continuing, "see also Tex.Const.Art.V.§12(b)(defining "Indictment"

1 1

'1

and "information" as written instrument preseted to the court "charging
a person with the commission of an offense "'"5
The court of appeals was [brash] to say the least, when the court of
appeals assertd "it gives deference to the trial court", see court of
appeals "Memorandum Opinion"(p.3, second paragraph), e.g., to give deference to the trial court,[does not mean you "cover your eyes"]and let
the trial court get away with violating the Petitionerrsccoastitutional
rights.
This simplly is a [trite] statement by the court of appeals, when
the only place in the record the court of appeals could find the trial
court's inference .:.of its assessment as to what offense statute the Pettioner is charged with and convicted under for Counts One and Two, is
where the trial court inferred the jury's verdict for Counts One and
Two in the trial court's judgment of conviction; see,(C.R.Vol.1,pp.219225).
This Honorable Court should agree, although the court of appeals g:.
gives deference to the trial court's assessment of Counts Otie and Two,
the court of appeals, in following th erequired guilding principles,
should have granted Issue One, due to the trial court's lack of per-:
sonal jurisdiction over the Petitioner and subject-matter r±n.regards
to Counts One and Two.
Furthermore, the court of appeals [ran] past a very [Fundamental
Principle], that the High Court of Appeals of Texas held to in,Teal v.
State,230 S.W.3d 172,2007,Tex.App.LEXIS 316(Tex.Crim.App.Mar.7.no pet.)
"Implicit within case law is that "the offense" charged must be one for
which the trial court has subject-matter jurisdiction and although the
"indictment" provision of the constitution explicitly speaks only of t..
the two requirements of "a person" and "anb offense" the constitution
also sets out the subject-matter of the Texas Courts and an indictment
must also satisfy the constitution requirement of the subject-matter
jurisdiction over "an offense".Id.
This Honorable Court,~should agree, for the court of appeals to ignor the High Court of Texas holding on the part of the Teal Court, is
to remove the very [cornerstone].of Teal, that the court of appeals
should have relied upon to grant the Petitioner's Issue One of his
Direct Appeal.
14

See also;Chafin v. State,95 S.W.3d 549,Tex.Crim.App.LEXIS 8769 No.03tDl~0tr493~CR“; December r27'200'2'7f'i 1 ed~) at 5"53TR~EyProcedure —Count i~~"Tn
light of Appellant's contentions that he was improperly charged and
convicted of conduct that was not a crime"."To convict someone of a
crime on the basis of conduct that does not constitute the crime off­
ends the basis notion of Justice and Fair play embodied in the United
States Constitution." United States v. Briggs,939 F2d 222-228(5thCir.
1991);see also,United States v. Daniels,12 F.Supp.2d 573 J68 573(N.D.
Tex.1998). Chafin,95 S.W.3d 549, at 555:there are several reasons why
the trial court's earlier action was inappropriate in view of the un^C
disputed proof at trial that the conduct alleged in Count 1 actually
occured in 1996 when the conduct was not criminalized. The court had no
personal jurisdiction over the Appellant or subject-matter in regards
to COunt 1 when the trial court lacks jurisdiction for any reason the
judgment is rendered void; moreover, the Code of Criminal Procedure
provides the procedure for the trial court. Article 36.11 provides in
pertinent part "if it appearsduring trial that the trial court has no
jurisdiction of the offense or that the facts charged in the indictment
do not constitute an offense the jury must be discharged." Tex.Code
Crim.Proc.ann Art.36.11(westl981).
This Court should agree, the court of appeals has no such reform­
atory [power] in regards to reforming the Penal Code Provision under
which the Petitioner has been convicted and as such, this Honorable
Court should agree,the court of appeals actions were egregious.
Accordingly this Honorable Court, should agree, the court of appeals
rulings in reference to Issue One of Petitioner's Direct Appeal, were
prejudicial and as such , Petitioner, ask this Honorable Court to grant
this Writ of Certiorari, pursuant of Supreme Court Rule 10(b) and the
United States Constitution, Fourteenth Amendment: Due Process Clause,
in the interest of Justice, as to prevent a miscarriage of Justice in
this instant case and to ensure a continued upholding of our great pro­
tections afforded to the citizans of the United States of America of
our United States Constitution.

15

PURSUANT TO SUPREME COURT RULElO(b)
Did the court of appeals err in ruling the
Motion to Quash and the argument raised in
Issue Four,are not the same Issue
The court of appeals decision conflicts with other court of appeals,
Court of Criminal Appeals of Texas, United States Court of Appeals,
United States Constitution, Fourteenth Amendment: Due Process Clause,
pursuant of Supreme Court Rule 10(b), Tex.R.App.P. 66.3(a)(c)(d)(f),
Tex.Code Crim.Proc.Art.21.03, Tex.Code Crim.Proc.21.11, Tex.Penal Code
Prov.§21.11(a)(1).
A. THE ARGUMENTS IN THE PETITIONER'S MOTION TO QUASH AND ISSUE FOUR AS
BRIEFED,ARE THE SAME, AS PERTAINING TO THE ISSUE OF RIGHT TO NOTICE
The Petitioner shows this Honorable Court, the court of appeals
error in it use of,Smith v. State,309 S.W.3d 10,16,18(Tex.Crim.App.'
2010)("court of appeals mischaracterizes defendant's complaint as a
"notice problem" when defendant complained the charging instrument
failed to describe an element of the offense.")ld.see;(court of appeals
Memorandum Opinion,p.5,footnote).
The Petitioner shows this Honorable Court, in his "Motion to Quash"
(C.R.Vol.1,p.122, starting at line 12)"Furthermore the indictment is :
insufficient due to the fact it does not charge the commission of an
offense in ordinary and concise language so as to enable a person of
common understanding to know what is meant and with the degree of certainty that will give the defendant notice of what particualar offense
charged pursuant to(Texas Code Criminal Procedure Article 21.11)" see
also,(Petitioner's Direct Appeal Brief, p.23, starting at line 5)"as
stated in the Motion to Quash, "the States accusatory pleading does not
state the defendant engaged in any kind of spacific conduct namely
"sexual contact" by touching a child or any person. .."(C.'R7Vblll:,p. 122)
Thus Petitioner shows this Honorable Court,(supra) the "spacific
conduct" namely "sexual contact", although , yes it is an element of
the offense, Petitioner points out [more importantly] in order for the
offense of "Indecency With A Child By Sexual Contact" to be committed
i.e. "the commission of the offense", there must be a showing in the
charging instrument of "sexual contact", i.e "spacific conduct".
16

Accordingly, the High Court of Texas held in,Moff v. State,154 S.W.
_3d—5-9-9-J-2-2-04—Xe-X—Cri.m-..
i-=-0-3_0.C-t-O±>.ex—6-,-2004_Del-i-ver-ed-)
At 601...In addition, the Texas Code of Criminal Procedure provides
guildlines relating to the sufficiency of an indictment.See e.g. Art­
icle 21.03("Everything should be stated in an indictment which is to be
proved.")- The Court in,Moff, was dealing with the question of a "not­
ice problem", and as such this Honorable Court should agree, the court
of appealsin its Opinion is [mistaken], therefore making the court of
appeals rulings erroneous.
This Honorable Court should agree, the Petitioner in Issue Four of
his Direct appeal, argues, the trial court abused of discretion, in
failing to grant the Petitioner's Motion to Quash or to atleast compel
the State to meet the Petitioner's substantial right to "notice", see
Moff,154 S.W.3d, at 602:"Because fundamental constitutional protections
are involved, if the defendant files a timely motion stating that the
indictment does not provide adequate notice, there are some circum- '
stances in which the trial court may require more information." "In .
Drumm, the appellant filed a motion to quash, stating that the informa­
tion failed to give sufficient notice. The trial court overruled the
motion. We reversed the judgment and stated:"Because of the fundamental
notion of fairness that requires notice of the nature of the charges
against the accused in our system of justice a timely claim of inade­
quate notice requires careful consideration.. .When the defendant
:
petitions for sufficient notice of the States charges by motion to
quash adequately setting out the manner in which notice is deficient
the presumption of innocence coupled with his right to notice requires
that he be given such notice.Drumm v. State,560 S.W.2d 944 at 946-47.
Thus the accused has the right to notice that is spacific enough to al­
low him to investigate the allegations against him and establish a :^
defense.
B.

rSLErElS&YPURSUANT ™, TEX. R. APP. P. 44.2 (b) ,

The court of appeals was required to conduct a harmless error analysis,pursuant to,Tex,R,app.P.44.2(b), but failed to do so instead
[shifting] the focus onto the Petitioner. Essentially, saying the 7v':17

Petitioner failed tp prove the argument made in his motion to quash in
drs-stre—Ftrorq—frecmxs'e 0"f srnire k'irvd O'f mistaken idenity["TTaw]q see court
of appeals Opinion(p.5.footnote).
In doing so the court of appeals puts a burden of proof on the Pettioner, as to the trial court's error.
The High Court of Appeals of Texas, in holding to this Honorable
Courts '.'Standard of Review", pertaining to , harmless error, makes it
very clear how the court of appeals are to conduct their reviews when
it comes to harmless error analysis. In,Johnson v. State,43 S.W.3d 1;
2001 Tex.Crim.App.LEXIS 23 No.1353-99 March 28,2001 Delivered) At 4...
The appropriate standard of harm.is to disregard an error unless a sub­
stantial right has been effected.Tex.R.App.P.44.2(b).Id. Petitioner
shows this Honorable Court, Johnson, in his Petition For Discretionary
Review, argued the court of appeals was erroneous in putting a burden
of proof on the Appellant. Johnson,43 S.W.3d at 4..."We agree with the
Appellant that no burden to show harm should be placed on the defendant
who appeals. In Ovalle v. Statel3 S.W.3d 774(Tex.Crim.App.2000),we ex­
plained "no party should have the burden to prove 'actual' harm.""at
787.
Accordingly this Honorable Court, should agree,;thescourttoffappeals
rulings in reference to Issue Four of Petitioner's Direct Appeals, were
prejudicial and as such, Petitioner, ask this Honorable Court to grant
this Writ of Certiorari, pursuant of Supreme Court Rule 10(b) and the
United States Constitution, Fourteenth Amendment: Due Process Clause,
in the interest of Justice, as to prevent a miscarriage of Justice in
this instant case and to ensure a continued upholding of our great pro­
tections afforded to the citizans of the United States of America of
ourUnited States Constitution.
PURSUANT TO SUPREME COURT RULE 10(b)
Did the court of appeals err, by relying on Tex.
R.App.P.38.l(i),ruling Issue Two and Three are
inadequately briefed and present nothing to review
because Petitioner failed to point to any element
the State was required to prove as being
insufficiently supported by the evidence
A. EVIDENCE INSUFFICIENT TO SUPPORT CONVICTION UNDER TEXAS PENAL
CODE §21.11(a) (1)"INDECENCY mm A £KLLD BY SEXUAL CONTACT"
18

The court of appeals decision conflicts with other court of appeals,
Court—of—Criminal' A"pp"eaTs—of-Texas-;—Und-ted—States—Court—o-f—Ap p eadrs------United States Constitution, Fourteenth Amendment: Due Process Clause,
pursuant of Supreme Court Rule 10(b), Tex.R.App.Proc. 66.3(a)(c)(d)(f),
Tex.Code Crim.Proc.ARt.42.01§1, Tex.Penal Code Prov.§21.11(a)(1).
In the court of appeals "Memorandum Opinion", concerning the Petit­
ioner's argument in Issue Two and Three "sufficiency of evidence", the
Petitioner directs this Honorable Court to the court of appeals Opinion
at(p.6, starting at line 7):The court erroneously states "Minze com- ....
plains the evidence is insufficient to support his conviction for crim­
inal Solicitation of a Minor(Counts One and Two,").
The Petitioner, wishes to make it very clear for the record and to
this Honorable Court, never at any time in any part of the Petitioer's
Direct Appeal Brief does the Petitioner claim nor agree that he has
been charged with nor convicted of "Criminal Solicitation of a Minor",
this is an essertion made by the court of appeals that is neither sup­
ported by neither the record or the Petitioner's Direct Appeal brief.
The Petiotioner was charged and convicted in Counts One and Two, un­
der Texas Penal Code Provision:§21.11(a)(1)"Indecency With A Child By
Sexual Contact".See;(C.R.Vol.1.pp.219-225)(trial court's judgment of c
conviction, Counts One and Two).
Accordingly, the Petitioner's argument in Issue Two and Three are,
the evidence is insufficient to support the convictions for Counts One
and Two, under Penal Code Provision §21.11(a)(1).
It is obvious the court of appeals ignored the evidence.'in the ree
cord, i.e. the trial court's judgment of conviction, see;(C.R.Vol.1.pp.
219-225). In doing so the court of appeals, went against the High Court
of Texas ruling in Breazeale v. State,638 S.W.2d 446,450-51(Tex.Crim..
App.1984);"[t]he formal judgment of the trial court's carries with it
the presumption of regularity and truthfulness [in the conduct of a
jury trialjand as such is never to be lightly set aside.
B. STANDARD OF REVIEW
The Petitioner, points this Honorable Court to a holding that could
be said to be the "Golden Rules":.forlall Court of Appeals whether it be
state or federal .
19

The court of appeals decision conflicts with other court of appeals,
Court of Criminal Appeals of Texas, United States Court of Appeals,
United States Constitution, Fourteenth Amendment: Due Process Clause,
pursuant of Supreme Court Rule 10(b), Tex.R.App.Proc. 66.3(a)(c)(d)(f),
Tex.Code Crim.Proc.ARt.42.01§1, Tex.Penal Code Prov.§21.11(a)(1).
In the court of appeals "Memorandum Opinion", concerning the Petit­
ioner's argument in Issue Two and Three "sufficiency of evidence", the
Petitioner directs this Honorable Court to the court of appeals Opinion
at(p.6, starting at line 7):The court erroneously states "Minze com- ....
plains the evidence is insufficient to support his conviction for crim­
inal Solicitation of a Minor(Counts One and Two,").
The Petitioner, wishes to make it very clear for the record and to
this Honorable Court, never at any time in any part of the Petitioer's
Direct Appeal Brief does the Petitioner claim nor agree that he has
been charged with nor convicted of "Criminal Solicitation of a Minor",
this is an essertion made by the court of appeals that is neither sup­
ported by neither the record or the Petitioner's Direct Appeal, brief.
The Petiotioner was charged and convicted in Counts^One and Two, un­
der Texas Penal Code Provision:§21.11(a)(1)"Indecency With A Child By
Sexual Contact" . See ;.(C. R.Vol. 1. pp. 219-225) (trial court's judgment of c
conviction, Counts One and Two).
Accordingly, the Petitioner's argument in Issue Two and Three are,
the evidence is insufficient to support the convictions for Counts One
and Two, under Penal Code Provision §21.11(a)(1).
It is obvious the court of appeals ignored the evidence:'in the ree.
cord, i.e. the trial court's judgment of conviction, see;(C.R.Vol.1.pp.
219-225). In doing so the court of appeals, went against the High Court
of Texas ruling in, Breazeale v. State,638 S.W.2d 446,450-51(Tex.Crim..
App.1984);"[t]he formal judgment of the trial court's carries with it
the presumption of regularity and truthfulness [in the conduct of a j
jury trialjand as such is never to be lightly set aside.
B. STANDARD OF REVIEW
The Petitioner, points this Honorable Court to a holding that could
be said to be the "Golden Rules"iforlall Court of Appeals whether it be
state or federal .
19

The Court of Criminal Appeals of Texas makes it very clear when it
-ire±d—rn—rrkerrs h-i-p—v-.—Sta-t-e—7-8Q—S—W-^-2-<i•on
reh'g)MWe are not to sit as a thirteenth juror reviewing evidence or
deciding whether we believe the evidence establishes the element in
contention beyond a reasonable doubt:rather we are to ask whether the
trier of fact, acting rationally, could have found the evidence suff­
icient to establish the element beyond a reasonable doubt....".
This Honorable Court should agree, in the case at bar, the Peti-^i
tioner is convicted under Texas Penal Code Provision §21.11(a)(l)"Indecencey With A Child By Sexual Contact".
In the court of appeals Opinion at(p.6, under the title "standard
review" at line 22), the court of appeals states, "we may not re-weigh
the evidence or substitute our judgment for that of the fact finder.
Williams v. State,235 S.W.3d 742,750(Tex,Crim. App.2007). [Yet] this
is [precisely] what the court of appeals has done it its review. See
the court of appeals 0pinion(p.8, lines 2-4)"Minze was not charged with
nor convicted of indecency with a child. He was charged with criminal
solicitation of a minor under penal code provision §15.031(b)." This
assertion is [trite] to say the least, it it [not supported by the
record. The court of appeals continues laying out the standard it is
[supposedly] following, see Opinion at(p.7, lines 15-17);"we measure
whether the evidence presented at trial was sufficient to support a
conviction by comparing it to "the elements of the offense" as defined
by a Hypthetically correct jury charge for the case." Malik v. State,
953 S.W.2d 234,240(Tex.Crim.App.1997). The court of appeals fall short
here as well, in that,Malik, at 239,40, the High Court of Texas held:
"No longer shall sufficiently of evidence be measured by the jury
.
charge actually given.[Measuring sufficiency by the indictment is an
inadequate substitute because some important issues related to suffici­
ency—e.g. the Law of parties and the Law of transferred intent —are not
contained in the indictment. [S]ufficiency of evidence should be mea^v
sured by the elements of the case. Such a charge would be one that set
out the law, is authorized by the indictment, does not necassarily in­
crease the states burden of proff or unnecassarily restricts the states
liability and adequately describes the particualar offense for which
the defendant was tried...[t]he standard we formulte today ensures that
20

a judgment of acquittal is reserved for those situations in which there
is an actuarfallure in the states proof of the crime rather than a
mere error in the jury charge submitted.Id.
This Honorable Court should agree, the court of appeals, failed to
follow guilding principles in its attempt t conduct its "standard ' .n.
review".
C. PROPERLY BRIEFING THE ISSUE SO THAT THE COURT CAN CONDUCT A PROPER
REVIEW ACCORDING TO THE APPROPRIATE AUTHORITIES AND TO THE RECORD
PURSUANT TO TEX.R.APP.P.38.1(i)
This Honorable Court, after reviewing Issues Two and Three as brief­
ed, see Petitioner's brief(pp.7-8), should agree the Petitioner, con-:
cisely, precisely and adequately, set out the standard of review the
reviewing court is supposed to adhere to and gives the appropriate
Authorities and citations; following at(p.9) the Petitioner lays out
the date the Petitioner was indicted , states the state failed to meet
the burden of proof by failing o sufficiently establish the forbidden
act of "sexual Contact", the Petitioner repeats the same for Issue
Three, see(pp.12-18).
Accordingly this Honorable Court should agree, the court of appeals
rulings on Issues Two and Three, are erroneous in not following the
standard of review and were prejudicial and as such Petitioner ask
this Honorable Court to grant this Writ of Certiorari, pursuant of
Supemem Court Rule 10(b) and the United States Constitution, Fourteenth
Amendment: Due Process Clause, in the interest of Justice, as to pre^
vent a miscarriage of Justice in this instant case and to ensure a continued upholding of our great protections afforded to the citizans of
the United States of America of our United States Constitution.
PURSUANT OF SUPREME COURT RULE 10(b)
Did the court of appeals err in ruling,the
Petitioner failed to provide Authority to
support his argument and the Issue is
improperly briefed and presents nothing for
review pursuant to Tex.R.App.P.38.1(i)
A. THE SIXTH AMENDMENT DOES NOT PERMIT THE PROSECUTION TO PROVE ITS
CASE VIA EX PARTE OUT-OF-COURT AFFIDAVITS

21

a judgment of acquittal is reserved for those situations in which there
is an actua]nfaTTure in the stains proof urf—the- - -c-rim-e—ra-t-h-e-r—-than—
mere error in the jury charge submitted.Id.
This Honorable Court should agree, the court of appeals failed to
follow guilding principles in its attempt t conduct its "standard ve'/
review".
C. PROPERLY BRIEFING THE ISSUE SO THAT THE COURT CAN CONDUCT A PROPER
REVIEW ACCORDING TO THE APPROPRIATE AUTHORITIES AND TO THE RECORD
PURSUANT TO TEX.R.APP.P.38.l(i)
This Honorable Court, after reviewing Issues Two and Three as briefs
ed see Petitioner's brief(pp.7-8), should agree the Petitioner cone: r:
cisely, precisely and adequately, set out the standard of review the Vr’eviewingccourt is .. supposed to adhere to and gives the appropriate iAuthorities and citations; following at(p.9j the Petitioner lays out
the date the Petitioner was indicted
states the state failed to meet
the burden of proof by failing o sufficiently establish the forbidden
act of "sexual Contact", the Petitioner repeats the same for Issue T..:-; .
Three, see(pp.12-18).
Accordingly this Honorable Court should agree, the court of appeals
rulings on Issues Two and Three, are erroneous in not following the o
standard of review 'and were prejudicial and as such Efetitlonerr,ask id..'
this Honorable Court to grant this Writ of Certiorari, pursuant of
Supemem;.Court Rule 10(b) and the United States Constitution, Fourteenth
Amendment: Due Process Clause, in the interest of Justice, as to prev
vent a miscarriage of Justice in this instant case and to. ensure a con­
tinued upholding of our great protections afforded to the citizans of
the United States of America of our United States Constitution.
PURSUANT OF SUPREME COURT RULE 10(b)
Did the court of appeals err in ruling,the
Petitioner failed to provide Authority to.
support his argument and the Issue is
improperly briefed and presents nothing for
review pursuant to Tex.R.App.P.38.l(i)
A. THE SIXTH AMENDMENT DOES NOT PERMIT THE PROSECUTION TO PROVE ITS
CASE VIA EX PARTE OUT-OF-COURT AFFIDAVITS

21

The court of appeals decision conflicts with other court of appeals,
'Ccrcrrt~o'f—€-r‘rmTn-aT—A-ppe-aT-s—o-f—Te-x-a-s-j—Un-i-ted—S-ta-te-s—Gou-c-t—of—Appe-aJL-s-,-------United States Constitution, Sixth Amendment and Fourteenth Amendment:
Due Process Clause, pursuant of Supreme Court Rule 10(b),Tex.R.App.P.
66.3(a), Tex.R.App.P.38.l(i).
The court of appeals, was erroneous in its ruling, that Petitioner
failed to provide Authority to support his argument and the Issue is
improperly briefed and presents nothing for review, pursuant to Tex.R.
App.P.38.1(i), see court of appeals Opinion(p.9).
The Petitioner, points this Honorable Court to the Petitioner's
brief(p.30, last paragraph)"during Bartlett's testimony, the baggie
from the hat was admitted and discusion of the presumptive test was .
had. However, no lab analysist was called to testify, and no,continuing
at (31) lab results were admitted proving the substance was methamphetamine, Barlett's "assumption" that the substance was methamphetamine
amounted to the admission of a lad certificate. It is clear in,Melendez
-Diaz v. Massachusetts,537 U.S. 305,129 S.Ct. 2527(2008)that admitting
lab results without proper witness is aviolation of Crawford v. Washr
ington,541 U.S. 36,124 S.Ct. 1354(2004) and in violation of the Sixth
Amendment of the United States Constitution." In Malendez-Diaz at 2532.
.."The document at issue here while denominated by Massachusetts law
"certificates" are quite plainly affidavits[.]...They are incontrovertibly a "solmn declaration or affirmation made for the purpose of esta­
blishing or proving some fact." Crawford,124 S.Ct. 1354, at 51. In
short under our decision in Crawford the analisist affidavits were
testimonial statements and the analysist' were witness" for purpose of
the Sixth Amendment. Absent a showing that the analists were unavail­
able to testify at trial and that petitioner had a prior opportunity
to cross-examine them, petitioer was entitled to be confronted with"
the analysist at trial).Crawford,124 S.Ct. 1354, at 54. continuing at
2542...The Sixth Amendment does not permit the prosecution to prove its
case via ex parte out-of-court affidavits, and the admission of such
evidence against Melendez-Diaz was error. We therefore reverse appeal
court and remand the case for further proceedings not inconsistent with
this Opinion.

22

Accordingly, the Petitioner shows this Honorable Court, the State ■ £
-red-i-ed—u-pon—a—ee-r-t-i-f-i-ca-te—a-s—evid An a a i.o_pr-ov-e_i.t.s_c.as.e_wi.tho_ut_the______
analysts testimony, and as such, the court of appeals rulings on Issue
Five was erroneous and prejudicial to the Petitioner and as such the
Petitioner ask this Honorable Court to grant this Writ of Certiorari,
pursuant of Supreme Court Rule 10(b) ,and:'.the United: States Constitution,
Sixth and Fourteenth Amendments: Due Process Clause, in the interest of
Justice, as to provent a miscarriage of Justice in this instand case
and to ensure a continued upholding of our great protections afforded
to the citizans of the United States of America of our United States
Constitution.
PURSUANT OF SUPREMEVCOURT RULE10(b)
Did the court of appeals err in ruling,
Petitioner failed to preserve Petitioner's
claim of prosecutorial vindictiveness,by
failing to comply with Tex.R.App.P.33.1(a)
A. THE CLAIM OF PROSECUTORIAL VINDICTIVENESS WAS TIMELY AND SPACIFICALLY
BROUGHT TO THE TRIAL COURT'S ATTENTION PURSUANT TO TEX.R.APP.P.33.1(a)
The court of appeals decision conflicts with other court of apppeals,
Court of Appeals of Texas, United States Court of Appeals, United States
Constitution, Fourteenth Amendment: Due Process Clause, pursuant of
Supreme Court Rule 10(b),Tex.R.App.P. 66.3(a)(c)(f), Tex.R.App.P.33.1(a)
The court of appeals erroneously ruled, that the Petitioner failed to
preserve his prosecutorial vindictiveness claim, because Petitioner :
failed to bring the claim to the attention of the trial court, pursuant
to Tex.R.App.p.33.1(a),see court of appealsOpinion(p.10, lines, 4-5)
"Minze did not bring this claim to the trial court's attention and thus
did not preserve this complaint for review."
The Petitioner, points this Honorable Court to Petitioner's pre-trial
"Motion to Dismiss, that was timely filed(C.R.Vol.1,pp.40-52). In the
motion to dismiss, the Petitioner is very persistant in showing the
misconduct of the state. See "motion to Dismiss"(C.R.Vol.!,pp.45-53)
also at(C.R.Voll,P.45)Petitioner cites,Bordenkercher v. Hays,434 U.S.
357, this is this Honorable Court's precedent for pre-trial prosecutor­
ial vindictiveness.

23

The Petitioner shows this Honorable Court, next at the pre-trial
■hoaxing—f-or—t-he—Mo~t-io.n_t.o_D_i^.mis_sl!. the trial court abused its discretion, when it refused to hear the motion, by stating, "Now, your motion
to dismiss, I'm going to reset that for another day because there really
is no motion to dismiss."(R.R.Vol.4,pp44,lines 23-25);continuing the
Petitioner shows, the trial court then stated,"I'11 go ahead and read it
again carefully since it is quite lengthy and then I'll--we'll set a
hearing in the next week or so to reconvene and hear this motion to dis­
miss or whatever you want to call it before-- you shouldn't call it that
see(R.R.Vol.4,p.45,lines 4-8).
This obviously is an abuse of discretion by the trial court, due to
the fact that the Tex.Code of Criminal Procedure Article 28.01§2,states
"A Motion to Dismiss must be presented to the trial court prior to trial.
Due to this fact the trial court should have heard the motion to dismiss.
The Petitioner filed a "Motion To Disqualify The Disrect Attorney",
see(C.R.Vol.l,pp.90-110), in this motion the Petitioner, extensively
pleads the claim of prosecutorial vindictiveness.
The Petitioner, lastly points this Honorable Court to the pre-trial
hearing , for the "Motion t Disqualify the District Attorney",See(R.R.
Vol.9,p.35, lines 2-19)starting at line 2:Defendant,"Basically that was
where Dale Hanna threatened me on Febuary 2nd,2017 again to indict on
the bond jumping and then on Febuary-- on April on that same--on Febuary
2nd they said they would be ready to go to trial and we set a trial date
for May 1st then on April 24th they came back and that is where put the
--reindicted me and that is where they came up with this indecency with
a child by sexual contact when they gave notice on the record they said
they were filing a bond jumping indictment charge or going to be indict­
ing me on bond jumping they never mentioned anything about the charge
from Aggravated Promation of Prostitution to indecency with a child by
sexual, contact when they did that from what I have read and from looking
into some of the law it seems to me like that was prosecutorial vindic­
tiveness for not taking a plea bargan and overreaching on the charges
that is why I brought that up.

24

This Honorable Court, should agree, after reviewing what the Peti-^:

.

in citing, Neal v. Sbate, <
150 S.W.3d 169,175(Tex.Crim.App.2004)the court ruled(defendant forfeit­
ed prosecutorial vindictiveness claim by failing to comply with Tex.R.
•■a'

App.P. 33.1 (a) ." In Neal, the court found that neal's vindictiveness
claim was (l)not timely(2)not spacific and(3) not ruled on by the trial
court.Id. at 175-79.
Accordingly this Honorable Court, should agree the Petitioner was
(1)timely in bringing it to the Attention of the trial court(2) was
spacifiez(3)the trial court denied bbthr-the motions the Petitioner filed
in trying to bring the claim to the attention of the trial court, to show
actual Prosecutorial Vindictiveness.
Accordingly this Honorable Court, should agree the court of appeals
was erroneous in ruling the Petitioner failed to bring his claim to the
attention of the trial court's and as such the court of appeals rulings
were prejudicial to the Petitioner and as such the Petitioner ask this
Honorable Court to grant this Writ of Certiorari, pursuant of Supreme
Court Rule 10(b), and the UNited States Constitution, Fourteenth Amend­
ment: Due Process Clause, in the interest of Justice, as to prevent a
miscarriage of Justice in this instant case and to ensure a continued
upholding of our great protections afforded to the citizans of the i
United States of America of our United States Constitution.

26

Furthermore, this Honorable Court should grant this Writ of Certiorari,
fo_und_er on the Word -of God, which is in all
_____
[Truth],[Righteousness] and [Justice]. See; PROVERBS:11;1, Dishonest
scales are an abomination to the Lord, But a just weight is His Delight.
See also;HEBREWS : 13:3 , "Remember the prisonersr.as:. if .'-chained with themthose who are mistreated-since you yourselves are in the body. I believe
our Founding Fathers had both these scriptures in mind when they wer.e
structuring our Constitution, especially the Fourteenth Amendment.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

^7
Date:

7,2021

